             December 12, 2003

             MEMORANDUM

             FOR:            USAID/Brazil Director, Richard Goughnour

             FROM:           RIG/San Salvador, Steven H. Bernstein

             SUBJECT:        Risk Assessment of Major Functions within USAID/Brazil
                             (Report No. 1-512-04-001-S)

             This memorandum is our report on the subject risk assessment. This is not
             an audit report and does not contain any formal recommendations for your
             action.

             Thank you for providing comments to the draft report. Your comments are
             included in Appendix II of this report.

             I appreciate the cooperation and courtesy extended to my staff during the
             risk assessment.



Background   Brazil is a country of tremendous contrasts and has the largest economy in
             South America. On the surface, Brazil has the profile of an advanced
             developing country. However, Brazil’s relatively high per capita income
             masks what is nearly the worst distribution of income in the world. Hence, it
             is not a poor country, but rather a country with an extremely large population
             living in poverty–53 million people.

             U.S. President Bush’s March 2001 meeting with the Brazilian President
             confirmed the U.S. desire to strengthen its relations with Brazil. Due to its
             physical size (larger than the continental United States), natural resource
             base, and its population of 170 million, it is a major economic power in
             South America and a leader in hemispheric and global economic and
             political affairs. Brazil has shown itself to be a dynamic and committed
             partner in championing democracy and supporting the U.S. in its fight
             against terrorism. It is increasingly clear that it is in the U.S. national interest
             to enhance its relationship with Brazil.
             USAID/Brazil’s major program areas and their fiscal year (FY) 2003 and
             2004 obligations (actual for FY 2003 and planned for FY 2004),1 in millions,
             are presented in the following table:

               USAID/Brazil’s Actual FY 2003 and Planned FY 2004 Obligations
                                   by Major Program Area
              Program Area                         FY 2003        FY 2004
              Infectious Diseases                         $9.5          $11.1
              Environment                                  6.4            5.3
              Energy                                       1.3            1.5
              At-Risk Youth                                1.8            1.5
                             Total                       $19.0          $19.4

             In October 2003, USAID/Brazil’s staff consisted of 21 people − 16
             foreign service nationals, 1 U.S. employee under a fellowship agreement
             with Johns Hopkins University, 3 U.S. direct hires, and 1 U.S. personal
             service contractor.

             The U.S. General Accounting Office (GAO) noted in Standards for
             Internal Control in the Federal Government (November 1999) that
             management controls should provide reasonable assurance that agency
             objectives are being achieved, operations are effective and efficient, and
             assets are safeguarded against loss. Conducting risk assessments is one
             technique identified by the GAO to enhance management controls.

             The purposes of the risk assessment were to identify areas where
             USAID/Brazil officials could focus efforts to improve their management
             controls and to assist the Regional Inspector General in planning future
             audits. The scope and methodology are shown in appendix I.



Discussion   In judging the risk exposure for the major functions in USAID/Brazil, we
             considered:

             •   The amount of funding the individual programs received relative to the
                 overall Mission budget.

             •   The level of U.S. interest in the program activities (considered high for
                 all activities based on information presented in the background section
                 starting on page 1).

             •   The level of involvement and/or support provided by the Government
                 of Brazil.

             _____________________
             1
               USAID/Brazil provided these amounts in its comments to the draft report.
                                                                                          2
•    The experience of key staff members in their area of expertise as well
     as in Brazil.

•    Incidences of improper administration or material weaknesses (if any)
     noted in prior reviews, audits and/or as reported by Mission officials.

•    Mission support for management controls.

•    Mission self-assessment on meeting planned targets.

•    The level of risk inherently present in an activity that program or
     administrative objectives will not be met.

The risk assessment of USAID/Brazil covered five functions.2 One
function was judged to have a “high” risk exposure, one function to have a
“moderate” risk exposure, and three to have a “low” risk exposure. These
judgements are discussed in the following tables.

 Function Description                                                Risk
                                                                     Exposure
 Infectious Diseases Program – Reduction of the
 transmission of selected communicable diseases                         Moderate
 (primarily HIV/AIDS and tuberculosis) in target areas
 Risk Assessment Factors

 •    With fiscal year 2003 and 2004 funding levels of approximately
      $9.5 and $11.1 million, respectively, the function makes up about
      half of the USAID/Brazil portfolio.

 •    Fiscal year 2003 was a transition year because the Mission had
      revised its strategy. As such, many activities were ending and the
      new mix and structure of activities had just started.

 •    According to the Mission’s self-assessment of progress, the
      activities met the targets included in the Mission’s Annual Report
      for fiscal year 2003.

 •    USAID/Brazil staff responsible for the function’s activities has
      between two to five years of experience with USAID.

 •    The     activities     were      funded       almost      entirely     through
_____________________
2
  For purposes of this risk assessment, Controller Office, Contracting Office, and
Executive Office operations were not considered major functions because primary
responsibilities for these activities were performed by either USAID/Bolivia or the U.S.
Embassy in Brazil. Additionally, in FY 2004, the Mission planned to start a Free Trade
program, which was also not considered as a major function for purposes of this
assessment.
                                                                                      3
    USAID/Washington funding mechanisms.

•   The program’s focus was parallel to Brazilian policy on
    communicable diseases, and all activities were coordinated with the
    Brazilian government and community groups.

•   Management monitors function activities through review of annual
    work plans, periodic progress reports, and site visits.



Function Description                                     Risk Exposure
Environment Program – Sustaining Natural
                                                          High
Ecosystems
Risk Assessment Factors
• With fiscal year 2003 and 2004 funding levels of approximately
   $6.4 and $5.3 million, respectively, the function is a significant
   portion of the USAID/Brazil portfolio.

•   The manager responsible for the function’s activities has ten years
    of experience with USAID.

•   Fiscal year 2003 was a transition year because the Mission is
    operating under a new strategy. As such, many activities were
    ending and the new mix and structure of activities had recently
    started.

•   Under the new strategy, activities are implemented with direct
    funding going to three Brazilian non-governmental organizations
    (NGOs) that had not received direct USAID funding in the past.
    Activities will be performed by the three Brazilian NGOs, as well as
    18 other organizations–both U.S. and Brazilian–working together as
    a consortium.

•   In the middle of implementing the FY 2002 program,
    USAID/Washington cut funding for this program by 40 percent.
    Chances of budget cuts happening again in future years can not be
    predicted, but if they occur they could greatly impact the success of
    this program. According to Mission officials, there has been no
    indication that cuts will happen again.

•   According to the Mission’s self-assessment of progress included in
    its Annual Report for fiscal year 2003, this function exceeded its
    planned targets. However, according to Mission staff, the indicators
    used under the old strategy were not good measurements of the
    success of the program.
                                                                         4
•   Management monitors function activities through review of annual
    work plans, periodic progress reports, and site visits.



Function Description                                      Risk Exposure
Energy Program – Mitigation of global climate
changes through market-based renewable energy and               Low
energy conservation
Risk Assessment Factors

•   With fiscal year 2003 and 2004 funding levels of approximately
    $1.3 and $1.5 million, respectively, the function makes up a
    relatively small portion of the USAID/Brazil portfolio.

•   The staff responsible for the function’s activities has between two to
    four years of experience with USAID.

•   Fiscal year 2003 was a transition year because the Mission was
    operating under a new strategy. As such, many activities were
    ending and the new mix and structure of activities had recently
    started.

•   Under both the old and new strategies, activities are being
    implemented by U.S.-based organizations.

•   According to the Mission’s self-assessment of progress, this
    function exceeded its planned targets as included in the Mission’s
    Annual Report for fiscal year 2003.

•   Management monitors function activities through review of annual
    work plans, periodic progress reports, and site visits.


Function Description                                      Risk Exposure
At-Risk Youth Program – Enhancing economic
                                                                Low
opportunities for disadvantaged youth
Risk Assessment Factors

•   With fiscal year 2003 and 2004 funding levels of approximately
    $1.8 and $1.5 million, respectively, the function is a relatively small
    portion of the USAID/Brazil portfolio.

•   The manager responsible for the function’s activities has 11 years of
    experience with USAID.
                                                                         5
 •   Fiscal year 2003 is a transition year because the Mission was
     operating under a new strategy. As such, many activities were
     ending and the new mix and structure of activities had recently
     started.

 •   Under the new strategy, activities are implemented by two main
     implementers, one U.S-based and one Brazilian organization.

 •   According to the Mission’s self-assessment of progress, this
     function met its planned targets as included in the Mission’s Annual
     Report for fiscal year 2003.

 •   Management monitors function activities through review of annual
     work plans, periodic progress reports, and site visits.


 Function Description                           Risk Exposure
 Program Office – Coordinates budget and annual
                                                     Low
 reporting
 Risk Assessment Factors

 •   Operations are structured with oversight from USAID/Washington
     and Mission management.

 •   The manager responsible for the office’s activities has 11 years of
     experience with USAID.

 •   Inherent risk in a program office is low.

 •   Office personnel are members of the strategic objective teams.

During the course of the risk assessment, we are making, based on our
conversations with Mission officials and limited review of Mission
documentation, the following suggestions for Mission management to
consider. These are not formal audit recommendations. Suggestions do
not necessarily represent deficiencies, but involve possible improvements
or enhancements to activities already in process or general Mission
operations.

     •   Contrary to the requirements in USAID’s Automated Directives
         System (ADS) 545, neither the Mission’s Information Systems
         Security Officer nor his alternate were performing periodic
         hardware and software checks to ensure compliance with USAID
         guidelines. Since only one foreign service national is responsible
         for maintaining the Mission’s computer systems, these periodic
                                                                         6
    checks are important to ensuring the security of USAID/Brazil’s
    systems.    Mission management stated that they were not
    performing these checks because they were unaware of what
    checks to perform or how to perform them. Therefore, we suggest
    that USAID/Brazil request specific instructions from the
    Information Resources Management office in USAID/Washington.

•   The General Services Office (GSO) at the U.S. Embassy in Brazil
    is responsible for maintaining the Mission’s inventory of office
    and residential furniture and equipment. However, some items
    were delivered to offices without going through the GSO and,
    therefore, were not included in inventory records. USAID/Brazil
    should ensure that any goods received go either directly through
    the Embassy’s GSO or that the GSO is immediately informed of
    their receipt. Follow-up should be done by the Mission to verify
    that all items have received bar codes and have been included in
    inventory records in a timely fashion.

•   During the next visit by USAID/Bolivia regional contracting
    officials, Mission management should request that these officials
    review the USAID/Brazil procurement files to determine if they
    contain all necessary documents, authorizations, and justifications.

•   USAID/Brazil should formalize procurement and payment
    procedures so that its staff knows the processes involved and who
    is responsible for what type of procurement and payment. For
    example, it should specify in which cases the GSO will procure
    items, when USAID/Bolivia will procure them, and when
    USAID/Brazil will do it.

•   The Mission should formalize its follow-up on the vulnerabilities it
    identifies during its annual Federal Managers' Financial Integrity
    Act (FMFIA) review. Specifically, it should establish and
    document the people responsible for correcting the weaknesses,
    planned completion dates, and dates weaknesses were corrected.

•   During next year’s review of their management controls (for the
    FMFIA review), Mission management should ensure that all
    checklist answers are complete and documented.

•   USAID/Brazil should notify and train all non-U.S. recipients of
    USAID funds (including any sub-recipients) that expend more than
    $300,000 (in USAID funds) a year of the audit requirements.
    Furthermore, the audits must be performed by an accounting firm
    that has been certified by USAID’s Office of Inspector General to
    perform audits of USAID funds. Specific requirements are found
    in ADS 591.
                                                                      7
                •   The Mission should review the Memorandum of Understanding
                    signed in February 2000 concerning the regional support services
                    among the USAID missions in Bolivia, Brazil, and Paraguay, to
                    determine if the same relationship and processes exist currently. If
                    processes and/or responsibilities have changed, this Memorandum
                    of Understanding should be modified.




Conclusion   This review assigned a risk exposure judgement of high, moderate, or low
             for each major function. The risk assignments are summarized in the table
             below.

                                                          Risk Exposure
               Function Description                  High    Moderate          Low
               Infectious Diseases Program
                                                                   9
               Environment Program
                                                      9
               Energy Program
                                                                                9
               At-Risk Youth Program
                                                                                9
               Program Office
                                                                                9
             A higher risk exposure judgement implies that the program objectives for
             a particular function are more vulnerable to not being achieved or to
             experiencing irregularities. Appendix I describes in detail the risk
             assessment’s scope and methodology.




                                                                                      8
                                                                                      Appendix I


Scope and     Scope
Methodology
              The Regional Inspector General/San Salvador conducted a risk assessment of
              major functions within USAID/Brazil. The risk assessment considered actual and
              planned operations principally for fiscal years 2003 and 2004 and was conducted
              at USAID/Brazil from October 14 – 17, 2003.

              Methodology

              We interviewed Mission officials as well as reviewed related documentation of
              major functions performed by USAID/Brazil. These documents covered
              background, organization, management, budget, staffing responsibilities, and
              prior reviews. The review of Mission documentation was isolated and judgmental
              in nature and was conducted principally to confirm our discussions with
              management.

              We identified USAID/Brazil’s major functions based on input from the Mission
              Director, discussions with Mission staff, and review of Mission reports. We
              judged risk exposure (e.g., the likelihood of significant abuse, illegal acts, and/or
              misuse of resources, failure to achieve program objectives, and noncompliance
              with laws, regulations and management policies) for those major functions. We
              assessed overall risk exposure as high, moderate, or low. A higher risk exposure
              simply indicates that the particular function is more vulnerable to not achieving its
              program objectives or to experiencing irregularities. We considered the following
              key steps in assessing risk exposure:

              •   The amount of funding the individual programs received relative to the overall
                  Mission budget.

              •   The level of U.S. interest in the program activities.

              •   The level of involvement and/or support provided by the Government of
                  Brazil.

              •   The experience of key staff members in their area of expertise as well as in
                  Brazil.

              •   Incidences of improper administration or material weaknesses (if any) noted
                  in prior reviews, audits and/or as reported by Mission officials.

              •   Mission support for management controls.

              •   Mission self-assessment on meeting planned targets.




                                                                                                 9
                                                                         Appendix I

•   The level of risk inherently present in an activity that program or
    administrative objectives will not be met.

These risk exposure assessments were not sufficient to make definitive
determinations of the effectiveness of management controls for major functions.
As part of the scope of the review, we (a) identified, understood, and documented
relevant management controls, and (b) determined what was already known about
the effectiveness of management controls.

The risk assessment has the following limitations.

•   First, we assessed risk exposure at the major function level only.

•   Second, we only assessed risk exposure. The assessments were not sufficient
    to make definitive determinations of the effectiveness of management controls
    for major functions. Consequently, we did not (a) assess the adequacy of
    management control design, (b) determine if controls were properly
    implemented, or (c) determine if transactions were properly documented.

•   Third, higher risk exposure assessments are not definitive indicators that
    program objectives are not being achieved or that irregularities are occurring.
    A higher risk exposure simply implies that the particular function is more
    vulnerable to such events.

•   Fourth, risk exposure assessments, in isolation, are not an indicator of
    management capability due to the fact that the assessments consider both
    internal and external factors, some being outside the span of control of
    management.

•   Fifth, comparison of risk exposure assessments between organizational units
    is of limited usefulness due to the fact that the assessments consider both
    internal and external factors, some being outside the span of control of
    management.




                                                                                10
                                                                                          Appendix II



Management
Comments
                                                                                 memorandum

    DATE:          November 26, 2003

    REPLY TO
    ATTN OF:       Dick Goughnour, USAID/Brazil Director

    TO:            Steven H. Bernstein, RIG/San Salvador

    SUBJECT:       Risk Assessment of Major Functions within USAID/Brazil
                   (Report No. 1-512-04-00X-S)


    On behalf of the entire USAID/Brazil staff, I would like to express our appreciation for the
    conscientious and collaborative effort reflected in the subject Risk Assessment report. The findings
    and accompanying recommendations will be extremely helpful to the Mission as we work to ensure
    that our administrative and programmatic operations are in full compliance with USAID policies
    and regulations, and that our resources are managed in the most efficient manner possible.

    Through this memorandum, USAID/Brazil provides its formal concurrence with the risk assessment
    findings. We have already initiated a number of actions in response to the specific suggestions
    included in the report, and commit to following through until each identified weakness is fully
    addressed.

    The following comments are provided for your consideration:

    • The funding chart included on page two of the draft report should be corrected as follows:

                     USAID/Brazil Actual FY 2003 and Projected FY 2004 Obligations by
                     Major Program Area
              Program Area                           FY 2003           FY 2004
              Infectious Diseases Program                  $ 9.5           $11.1
              Environment Program                          6.4             5.3
              Energy Program                               1.3             1.5
              At-Risk Youth Program                        1.8             1.5
              Free Trade and SME Growth                                    1.0
                     Total                                 $19.0           $20.4




                                                                                                     11
                                                                                    Appendix II

• For all four Strategic Objective “Risk Assessment Factor” charts (presented on pages three
  through six of the draft report), the funding levels included in the first bullet under each SO
  “Function Description” should also be adjusted to reflect the values listed in the preceding
  table.

• Specific to the “Risk Assessment Factors” chart for the Environmental Program presented on
  page 4, fifth bullet, the 40% funding cut referred to actually occurred in FY 2002, and not in
  FY 2003 as stated. Although the report statement that “chances of budget cuts happening
  again in future years cannot be predicted” is obviously correct, the Mission also has no
  indication that this will in fact be the case. To the contrary, the LAC Bureau-USAID/Brazil
  Management Agreement formalized in August of 2002 with the approval of the Mission’s
  FY 2003-2008 strategic plan provides stable funding levels through the end of the strategy
  period.

• With regard to the “High” risk exposure rating attributed to the Environmental Program, the
  Mission understands that the primary factor behind this classification was the fact that the
  program will be implemented with direct funding going to three new partners, all of which
  are Brazilian NGOs. The logic behind this rating makes sense, but the Mission would like to
  note that each organization was subjected to a rigorous pre-award survey prior to finalizing
  the corresponding grants. Moreover, all findings were resolved to the satisfaction of the
  Regional Contracts Officer and the Mission. That said, the Mission will continue to monitor
  these activities closely to ensure they achieve results in compliance with all applicable
  regulations and grant provisions.

With respect to the specific suggestions provided to correct identified weaknesses, the Mission
concurs fully, and in some cases, has already initiated corrective action. We plan to treat these
suggestions as if they were official audit recommendations, documenting the corresponding
actions until each identified weakness has been successfully addressed.

Again, USAID/Brazil would like to express its appreciation to the Regional Inspector General’s
Office for its professionalism, and for the valuable information and suggestions included in the
subject report.




                                                                                              12
